CERTIFICATE OF SERVICE
NO. TBD
Edward B. Fleury
Petitioner(s)
v.
Commonwealth of Massachusetts
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the EDWARD
B. FLEURY PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Thomas H. Townsend
District Attorney Hampshire
One Gleason Plaza
Northampton, MA 01060
(413) 586-9225
Counsel for Commonwealth of Massachusetts

Maura Healey
Massachusetts Attorney General
1 Ashburton Place
Boston, MA 02108
(617) 727-2200
Counsel for Commonwealth of Massachusetts

Lucas DeDeus

November 2, 2020
SCP Tracking: Robinson-422 Main Street-Cover White

